                             OFFICE OF
                      THE INSPECTOR GENERAL


                          U.S. NUCLEAR
                     REGULATORY COMMISSION


                        Review of NRC’s Accountability
                           and Control of Software

                       OIG-02-A-02     October 26, 2001




                          AUDIT REPORT




All publicly available OIG reports (including this report) are accessible through
                               NRC’s website at:
                     http://www.nrc.gov/NRC/OIG/index.html
                                             October 26, 2001




MEMORANDUM TO:                William D. Travers
                              Executive Director for Operations



FROM:                         Stephen D. Dingbaum/RA/
                              Assistant Inspector General for Audits


SUBJECT:                      REVIEW OF NRC’S ACCOUNTABILITY AND CONTROL
                              OF SOFTWARE (OIG-02-A-02)


Attached is the Office of the Inspector General’s audit report titled, Review of NRC’s
Accountability and Control of Software.

This report reflects the results of our review to determine whether NRC’s policies governing the
control of software and software licensing agreements comply with applicable laws and
regulations, and whether management controls are adequate to account for software and
ensure that software is properly licensed. Executive Order (EO) 13103, Computer Software
Piracy, requires all executive agencies to adopt policies and procedures to promote legal
software use and proper software management. The review determined that NRC is not in
compliance with the EO because its policies (management directives) and its procedures
(management controls) do not address the full scope of the EO’s requirements. As a result,
NRC needs to incorporate EO requirements into its Management Directives System and
implement measures to carry out the EO.

At an exit conference held on October 17, 2001, NRC officials generally agreed with the report’s
findings and recommendations. While agency officials chose not to provide a formal, written
response for inclusion in the report, they did provide editorial suggestions, which have been
incorporated where appropriate.

If you have any questions, please contact Tony Lipuma at 415-5910 or me at 415-5915.

Attachments: As stated

cc:     John Craig, OEDO
R. McOsker, OCM/RAM
B. Torres, ACMUI
B. Garrick, ACNW
D. Powers, ACRS
J. Larkins, ACRS/ACNW
P. Bollwerk III, ASLBP
K. Cyr, OGC
J. Cordes, OCAA
S. Reiter, CIO
J. Funches, CFO
P. Rabideau, Deputy CFO
J. Dunn Lee, OIP
D. Rathbun, OCA
W. Beecher, OPA
A. Vietti-Cook, SECY
W. Kane, DEDR/OEDO
C. Paperiello, DEDMRS/OEDO
P. Norry, DEDM/OEDO
M. Springer, ADM
R. Borchardt, NRR
G. Caputo, OI
P. Bird, HR
I. Little, SBCR
M. Virgilio, NMSS
S. Collins, NRR
A. Thadani, RES
P. Lohaus, OSP
F. Congel, OE
M. Federline, NMSS
R. Zimmerman, RES
J. Johnson, NRR
H. Miller, RI
L. Reyes, RII
J. Dyer, RIII
E. Merschoff, RIV
OPA-RI
OPA-RII
OPA-RIII
OPA-RIV
                                              Review of NRC’s Accountability and Control of Software


EXECUTIVE SUMMARY

    BACKGROUND

          On September 30, 1998, the President signed Executive Order (EO)13103,
          Computer Software Piracy, requiring all executive agencies to adopt policies and
          procedures to promote legal software use and proper software management.
          EO 13103 also directed the Federal Chief Information Officers (CIO) Council to
          improve agency practices concerning acquisition and use of software, and
          combating the use of unauthorized software. In August 1999, the CIO Council
          published agency guidelines to promote legal software usage.

    PURPOSE

          The objectives of the audit were to determine whether the U.S. Nuclear
          Regulatory Commission’s (NRC) (1) policies governing the accountability and
          control of software and software licensing agreements comply with applicable
          laws and regulations, and (2) management controls are adequate to account for
          software and ensure that software is properly licensed.

    RESULTS IN BRIEF

          NRC is not in compliance with EO 13103. NRC’s policies (management
          directives) and its procedures (management controls) do not address the full
          scope of EO 13103's requirements because (1) NRC focused its actions on
          personal use, not all uses of software, and (2) the agency planned to change the
          business approach for its information technology resources. As a result, NRC
          has not conducted an initial assessment of its software, established a baseline
          for software inventory, or determined if all software on agency computers is
          authorized. The lack of adequate policies and procedures leaves the NRC, its
          employees, and its contractors vulnerable to the consequences of unauthorized
          software use -- which may include fines and imprisonment.

    RECOMMENDATIONS

          This report makes six recommendations to the Executive Director for Operations
          to improve NRC’s accountability and control of software and respective licensing
          agreements. Recommendations can be found at page 5 of this report.

    AGENCY COMMENTS

          At an exit conference held on October 17, 2001, NRC officials generally agreed
          with the report’s findings and recommendations. While agency officials chose
          not to provide a formal, written response for inclusion in the report, they did
          provide editorial suggestions, which have been incorporated where appropriate.


                                          i
                    Review of NRC’s Accountability and Control of Software




[Page intentionally left blank.]




               ii
                                              Review of NRC’s Accountability and Control of Software


ABBREVIATIONS AND ACRONYMS

   CIO      Chief Information Officer
   EO       Executive Order
   MD       Management Directive
   NRC      Nuclear Regulatory Commission
   OCIO     Office of the Chief Information Officer
   OIG      Office of the Inspector General




                                        iii
                   Review of NRC’s Accountability and Control of Software




[Page intentionally left blank.]




              iv
                                                                 Review of NRC’s Accountability and Control of Software


TABLE OF CONTENTS

    EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
    ABBREVIATIONS AND ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii
    I. BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
    II. PURPOSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
    III. FINDING . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
              NRC IS NOT IN COMPLIANCE WITH EXECUTIVE ORDER 13103 . . . . . . . . . 2


    APPENDICES
              A. SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
              B. EXECUTIVE ORDER 13103, COMPUTER SOFTWARE PIRACY . . . . . . . . 9
              C. CHIEF INFORMATION OFFICERS COUNCIL GUIDELINES . . . . . . . . . . 13
              D. MEMORANDUM TO NRC’S CHIEF INFORMATION OFFICER . . . . . . . . . 19
              E. MEMORANDUM FROM NRC’S CHIEF INFORMATION OFFICER . . . . . . 21




                                                             v
                   Review of NRC’s Accountability and Control of Software




[Page intentionally left blank.]




              vi
                                                           Review of NRC’s Accountability and Control of Software


I. BACKGROUND

                 On September 30, 1998, the President signed Executive Order (EO) 13103,
                 Computer Software Piracy, requiring all executive agencies to ensure
                 compliance with applicable copyright laws. EO 13103 also directed the Federal
                 Chief Information Officers (CIO) Council to advise and recommend to executive
                 agencies and the Office of Management and Budget “government-wide
                 measures to carry out this order.” Appendix B contains the full text of EO 13103.

                 In August 1999, the CIO Council adopted guidelines for implementing EO 13103,
                 including recommended software management practices (see Appendix C). The
                 General Services Administration then distributed these guidelines to Government
                 agencies.

                 Computer software is protected by Federal copyright law,1 which requires users
                 of a particular program to have a software licensing agreement2 authorizing its
                 use. Under U.S. copyright law, the copying of a copyrighted work without the
                 permission of its author may subject the copier to civil and criminal penalties.3
                 For example, in May 2001, a Federal jury in Chicago returned a guilty verdict
                 involving software piracy conspiracy. Individuals conspired to infringe the
                 copyright of more than 5,000 computer software programs that were available
                 through an Internet site. The pirated software had a retail value in excess of $1
                 million. The civil penalties for copyright infringement include up to a $150,000
                 fine for each work infringed. Additionally, depending on the circumstances,
                 criminal penalties could be imposed.

                 As of September 30, 2000, the U.S. Nuclear Regulatory Commission (NRC) had
                 capitalized software with a value of more than $53.1 million with an additional
                 $7.738 million representing software under development.4 Financial data for
                 noncapitalized software (valued under $50,000) is not available because NRC
                 does track all software or its value.




       1
         Copyright Law is contained in Title 17 of the United States Code. The Copyright Revision Act
of 1976 (Public Law 94-553), effective January 1, 1978, was amended in 1980 to include computer
software under the category of “literary works.”
       2
           A software publisher’s license typically restricts copying of software to specific conditions.
       3
           18 U.S.C. 2318, 2319 and 2319A.

       4
         Independent Auditors’ Report and Principal Statements for the Year Ended September 30,
2000, OIG-01-A-06/March 1, 2001.

                                                       1
                                                Review of NRC’s Accountability and Control of Software


II. PURPOSE

           The objectives of the audit were to determine whether the NRC’s (1) policies
           governing the accountability and control of software and software licensing
           agreements comply with applicable laws and regulations, and (2) management
           controls are adequate to account for software and ensure that software is
           properly licensed.


III. FINDING

     A. NRC IS NOT IN COMPLIANCE WITH EXECUTIVE ORDER 13103

           NRC is not in compliance with EO 13103, which requires executive agencies to
           comply with applicable Federal copyright laws and with the CIO Council
           recommended software management practices. NRC’s policies (management
           directives) and its procedures (management controls) do not address the full
           scope of EO 13103 requirements because: (1) NRC focused its actions on
           personal use, not all uses of software, such as official business use; and (2) the
           agency planned to change the business approach for its information technology
           resources. As a result, NRC has not conducted an initial assessment of its
           software, established a baseline for software inventory, or determined if all
           software on agency computers is authorized. The lack of adequate policies and
           procedures leaves the NRC, its employees, and its contractors vulnerable to the
           consequences of unauthorized software use -- which may include fines and
           imprisonment.

           NRC’s Management Directives Do Not Address the Full Scope of Executive
           Order 13103

           Management Directive (MD) 1.1, NRC Management Directives System,
           establishes the agency’s management directives system as the basis for
           communicating “NRC policies, requirements, and procedures necessary for the
           agency to comply with Executive orders, pertinent laws, regulations, and the
           circulars and directives of other Federal agencies.” Thus, the management
           directives system is the appropriate vehicle to address EO 13103's
           requirements.

           On May 9, 2001, NRC issued MD 2.7, Personal Use of Information Technology,
           which addresses some of the EO’s requirements. However, the EO does not
           focus on just personal use; it addresses all uses of software, as does the CIO
           Council’s implementing guidelines.

           MD 2.7 defines personal use as “[a]n employee’s activity that is conducted for
           purposes other than accomplishing official or otherwise authorized activity.”


                                            2
                                                      Review of NRC’s Accountability and Control of Software

               NRC permits employees limited use of agency information technology (including
               software) for personal needs if the use does not interfere with official business
               and involves minimal additional expense. This directive details inappropriate
               personal use, some of which corresponds to the EO’s admonition against
               inappropriate use. Employees are admonished against “unauthorized
               acquisition, use, reproduction, transmission, or distribution of any controlled
               information, including computer software.” Although MD 2.7 addresses personal
               use, it does not address all uses of software. For example, it does not address
               government purchased software (under a single license) that might be installed
               at multiple locations, or employee purchased software used for official activities.

               To fully comply with EO 13103, NRC’s management directives must address all
               types of software usage.

               Agency’s Software Management Controls Do Not Implement the CIO
               Council’s Guidelines

               As required, the CIO Council established guidelines to implement EO 13103 in
               August 1999. The guidelines recommended that “Each Federal agency should
               consider these or similar steps to ensure agency compliance” with EO 13103.
               The guidelines provide that agency CIOs should be assigned overall
               responsibility for developing and implementing plans to ensure compliance.

               The CIO Council’s guidance also recommended that agency CIOs review
               whether existing procedures promote legal software use and proper software
               management. Suggested procedures in the CIO Council’s guidelines include (1)
               making an initial assessment of the agency’s existing policies and practices with
               respect to the use and management of software, (2) establishing an initial
               baseline of the agency’s software to assess whether the agency’s software
               usage complies with applicable software licenses,5 (3) preparing agency
               inventories of software present on its computers, (4) determining what software
               the agency is authorized to use, and (5) developing and maintaining adequate
               record keeping systems. The entire text of the CIO Council guidelines is shown
               in Appendix C.

               As stated, MD 2.7 only addresses personal use policy and does not reference
               additional policies or procedures that implement the CIO Council guidelines. For
               example, NRC has not conducted an initial assessment, established a baseline
               for software inventory, or determined if all software on agency computers is
               authorized.




       5
          This should include software on individual computers and software accessed through the
agency networks. Upon completion of the initial baseline, any unauthorized copies of software should
be (1) properly licensed or (2) destroyed and replaced with licensed copies.

                                                  3
                                     Review of NRC’s Accountability and Control of Software

Inadequate controls over agency software are exacerbated by the agency’s
procedures for permitting individual offices to purchase and control software.
Neither the Office of the Chief Information Officer (OCIO) nor other NRC offices
adequately control agency software. The Office of the Inspector General’s
(OIG’s) discussions with representatives from NRC’s larger offices disclosed that
none maintain a software inventory that accounts for all licensed software
installed on their computers.

Implementation Focused On Personal Use and a Changing Information
Technology Environment

OCIO staff stated that the agency has not fully implemented EO 13103 because
OCIO (1) focused on personal software use (MD 2.7), which they considered to
be a high priority area; and (2) planned to change its business approach for
managing NRC information technology resources.

OCIO staff acknowledged that MD 2.7 is the primary policy directive that
addresses segments of EO 13103’s requirements. They stated that MD 12.5,
NRC Automated Information Systems Security Program, revised February 1,
1999, also addresses some of the concepts contained in the EO. However,
OCIO staff acknowledged that the management directives system should contain
more policy guidance to fully implement the EO.

OCIO staff also advised that EO 13103 has not been fully implemented because
of the forthcoming seat management contract. Under seat management, an
agency contractor procures and manages hardware, software, and related
support services.

OCIO staff was advised that OIG’s review of the statement of work for the
proposed seat management contract determined that the contract did not clearly
describe a contractor’s responsibility for meeting the EO’s requirements. OCIO
staff stated that meeting these requirements will be a shared responsibility of the
agency and the prospective contractor. Because neither the division of
responsibility nor the need to meet EO 13103's requirements are clear, OIG
recommended that the contract be specific about the duties assigned to the
successful contractor. OIG provided these concerns and a recommendation to
NRC’s CIO in a memorandum dated August 31, 2001 (see Appendix D). The
CIO’s response can be found in Appendix E.

OCIO staff advised that, while improvements are needed, they are sensitive to
honoring software licensing agreements and using only legal software. OCIO
staff concluded that the MDs should include the full spectrum of controls
established in EO 13103 and the CIO Council’s implementing guidance. They
advised OIG that additional policy and guidance will be forthcoming.




                                 4
                                     Review of NRC’s Accountability and Control of Software

Inadequate Policies and Controls Put the Agency At Risk

Because NRC’s guidance to date is directed at personal software usage, NRC is
not in compliance with EO 13103. Neither OCIO nor individual offices have
adequate software controls that meet the EO’s requirements. As a result, the
agency does not adequately safeguard its property or know its degree of
compliance with software licenses.

Inadequate controls can lead to loss or misuse of agency property. Furthermore,
use of unauthorized software could tarnish the agency’s reputation and subject
it, its employees, and its contractors to significant legal penalties, such as fines
or imprisonment. In addition, NRC could be required to delete any unlicensed
software from its computer systems and purchase replacement copies.

RECOMMENDATIONS

OIG recommends that the Executive Director for Operations:

1.     Incorporate the requirements of Executive Order 13103, Computer
       Software Piracy, and the provisions of the Chief Information Officers
       Council August 1999 guidance into NRC’s Management Directives
       System.

2.     Issue interim guidance on software use until NRC’s Management
       Directives System is updated.

3.     Institute property management accountability and controls for all
       software.

4.     Incorporate Executive Order 13103, Computer Software Piracy,
       provisions into the seat management contract.

5.     Develop procedures for monitoring compliance with Executive Order
       13103, Computer Software Piracy.

6.     Establish a documented inventory of all authorized software on agency
       computers and remove all unauthorized software.




                                 5
                   Review of NRC’s Accountability and Control of Software




[Page intentionally left blank.]




               6
                                                                                      Appendix A
                                             Review of NRC’s Accountability and Control of Software



SCOPE AND METHODOLOGY

        To accomplish the audit objectives, the Office of the Inspector General (OIG)
        reviewed and analyzed pertinent laws, regulations, authoritative guidance, and
        prior agency OIG and U.S. General Accounting Office reports. In addition, OIG
        identified, analyzed, and compared NRC guidance with the aforementioned
        criteria. OIG interviewed NRC staff to identify agency policies governing the
        accountability and control of software and compliance with licensing agreements,
        and to determine current issues, problems, or known deficiencies. OIG
        interviewed staff in the Offices of the Chief Information Officer, Chief Financial
        Officer, Nuclear Reactor Regulation, Nuclear Material Safety and Safeguards,
        and Administration to determine responsibilities for purchasing and controlling
        software and licensing agreements.

        Management controls relevant to the audit were reviewed and analyzed.
        Throughout the review, auditors were aware of the possibility or existence of
        fraud, waste or misuse in the program under review. OIG conducted the audit in
        accordance with Generally Accepted Government Auditing Standards from June
        through August 2001.

        The major contributors to this report were Anthony Lipuma, Team Leader;
        Steven Zane, Audit Manager; and Michael Steinberg, Senior Auditor.




                                         7
                   Review of NRC’s Accountability and Control of Software




[Page intentionally left blank.]




               8
                                                                                             Appendix B
                                                    Review of NRC’s Accountability and Control of Software



EXECUTIVE ORDER 13103, COMPUTER SOFTWARE PIRACY

THE WHITE HOUSE
Office of the Press Secretary
For Immediate Release                                                                 October 1, 1998
EXECUTIVE ORDER
COMPUTER SOFTWARE PIRACY

The United States Government is the world's largest purchaser of computer-related services
and equipment, purchasing more than $20 billion annually. At a time when a critical component
in discussions with our international trading partners concerns their efforts to combat piracy of
computer software and other intellectual property, it is incumbent on the United States to
ensure that its own practices as a purchaser and user of computer software are beyond
reproach. Accordingly, by the authority vested in me as President by the Constitution and the
laws of the United States of America, it is hereby ordered as follows:

Section 1. Policy. It shall be the policy of the United States Government that each executive
agency shall work diligently to prevent and combat computer software piracy in order to give
effect to copyrights associated with computer software by observing the relevant provisions of
international agreements in effect in the United States, including applicable provisions of the
World Trade Organization Agreement on Trade-Related Aspects of Intellectual Property Rights,
the Berne Convention for the Protection of Literary and Artistic Works, and relevant provisions
of Federal law, including the Copyright Act.

(a) Each agency shall adopt procedures to ensure that the agency does not acquire,
reproduce, distribute, or transmit computer software in violation of applicable copyright laws.

(b) Each agency shall establish procedures to ensure that the agency has present on its
computers and uses only computer software not in violation of applicable copyright laws. These
procedures may include: (1) preparing agency inventories of the software present on its
computers; (2) determining what computer software the agency has the authorization to use;
and (3) developing and maintaining adequate record keeping systems. (c) Contractors and
recipients of Federal financial assistance, including recipients of grants and loan guarantee
assistance, should have appropriate systems and controls in place to ensure that Federal funds
are not used to acquire, operate, or maintain computer software in violation of applicable
copyright laws. If agencies become aware that contractors or recipients are using Federal funds
to acquire, operate, or maintain computer software in violation of copyright laws and determine
that such actions of the contractors or recipients may affect the integrity of the agency's
contracting and Federal financial assistance processes, agencies shall take such measures,
including the use of certifications or written assurances, as the agency head deems appropriate
and consistent with the requirements of law. (d) Executive agencies shall cooperate fully in
implementing this order and shall share information as appropriate that may be useful in
combating the use of computer software in violation of applicable copyright laws.


                                                9
                                                                                              Appendix B
                                                     Review of NRC’s Accountability and Control of Software


Sec. 2. Responsibilities of Agency Heads. In connection with the acquisition and use of
computer software, the head of each executive agency shall:

(a) ensure agency compliance with copyright laws protecting computer software and with the
provisions of this order to ensure that only authorized computer software is acquired for and
used on the agency's computers; (b) utilize performance measures as recommended by the
Chief Information Officers Council pursuant to section 3 of this order to assess the agency's
compliance with this order; (c) educate appropriate agency personnel regarding copyrights
protecting computer software and the policies and procedures adopted by the agency to honor
them; and (d) ensure that the policies, procedures, and practices of the agency related to
copyrights protecting computer software are adequate and fully implement the policies set forth
in this order.

Sec. 3. Chief Information Officers Council. The Chief Information Officers Council ("Council")
established by section 3 of Executive Order No. 13011 of July 16, 1996, shall be the principal
interagency forum to improve executive agency practices regarding the acquisition and use of
computer software, and monitoring and combating the use of unauthorized computer software.
The Council shall provide advice and make recommendations to executive agencies and to the
Office of Management and Budget regarding appropriate government-wide measures to carry
out this order. The Council shall issue its initial recommendations within 6 months of the date of
this order.

Sec. 4. Office of Management and Budget. The Director of the Office of Management and
Budget, in carrying out responsibilities under the Clinger-Cohen Act, shall utilize appropriate
oversight mechanisms to foster agency compliance with the policies set forth in this order. In
carrying out these responsibilities, the Director shall consider any recommendations made by
the Council under section 3 of this order regarding practices and policies to be instituted on a
government-wide basis to carry out this order.

Sec. 5. Definition. "Executive agency" and "agency" have the meaning given to that term in
section 4(1) of the Office of Federal Procurement Policy Act (41 U.S.C. 403(1)).

Sec. 6. National Security. In the interest of national security, nothing in this order shall be
construed to require the disclosure of intelligence sources or methods or to otherwise impair the
authority of those agencies listed at 50 U.S. 401a(4) to carry out intelligence activities.

Sec. 7. Law Enforcement Activities. Nothing in this order shall be construed to require the
disclosure of law enforcement investigative sources or methods or to prohibit or otherwise
impair any lawful investigative or protective activity undertaken for or by any officer, agent, or
employee of the United States or any person acting pursuant to a contract or other agreement
with such entities.

Sec. 8. Scope. Nothing in this order shall be construed to limit or otherwise affect the
interpretation, application, or operation of 28 U.S.C. 1498.


                                                10
                                                                                           Appendix B
                                                  Review of NRC’s Accountability and Control of Software


Sec. 9. Judicial Review. This Executive order is intended only to improve the internal
management of the executive branch and does not create any right or benefit, substantive or
procedural, at law or equity by a party against the United States, its agencies or
instrumentalities, its officers or employees, or any other person.

                                   WILLIAM J. CLINTON
                                   THE WHITE HOUSE,
                                   September 30, 1998.




                                             11
                   Review of NRC’s Accountability an Control of Software




[Page intentionally left blank.]




              12
                                                                                      Appendix C
                                             Review of NRC’s Accountability and Control of Software



CHIEF INFORMATION OFFICERS COUNCIL GUIDELINES

                          Guidelines for Implementing the
                              Executive Order 13103
                                         on
                            Computer Software Piracy
                                Federal CIO Council
                              Approved August, 1999
                              TABLE OF CONTENTS

I     INTRODUCTION
      A.   Background
      B.   Summary of Executive Order Requirements

II    RECOMMENDED SOFTWARE MANAGEMENT PRACTICES
      A.  Assign Responsibilities Chief Information Officer
      B.  Initial Assessment
      C.  Software Management Policy
      D.  Training
      E.  Periodic Inspections and Assessments

III   OTHER REQUIREMENTS




                                        13
                                                                                             Appendix C
                                                    Review of NRC’s Accountability and Control of Software


                                        Guidelines for
                             Implementing the Executive Order
                                              on
                                  Computer Software Piracy
These Guidelines are issued by the CIO Council pursuant to the Executive Order on
Computer Software Piracy (Executive Order 13103 — September 30, 1998). The Order
requires the Council to provide advice and make recommendations to executive
agencies and to the Office of Management and Budget on appropriate government-wide
measures to carry out the Order. In developing these Guidelines, the Council has
attempted to balance each agency's obligation to comply with the directives of the Order
against the need for flexibility in developing agency practices and procedures.
Accordingly, the Guidelines suggest general best practices that promote legal use of
software without imposing rigid requirements to achieve this goal.
Note: A software management toolkit with model policies and training materials will be
published separately to assist agencies with implementation of the Executive Order.

I        INTRODUCTION
         A. Background
As the nation's largest consumer of software, the U.S. Government has an essential role to play
in setting an example for the nation as a lawful user of computer software. Computer software
is protected by Federal copyright law, which requires users of a particular software program to
have a license authorizing such use. To provide guidance to Federal agencies in fulfilling this
role, President Clinton issued the Executive Order on Computer Software Piracy (Executive
Order 13103 -September 30, 1998) (Order), which seeks to:
                #      Ensure that executive agencies of the U.S. Government acquire,
                       reproduce, distribute, transmit, and use computer software in compliance
                       with international treaty obligations and federal law, including the
                       Copyright Act;
                #      Ensure that executive agencies maintain only legal software on their
                       computers and computer networks; and
                #      Ensure that Government contractors and recipients of grants and other
                       Federal funding do not use such funds to acquire, create, operate or
                       maintain computer software in violation of applicable copyright laws.

        B. Summary of Executive Order Requirements
President Clinton signed the Executive Order on Computer Software Piracy on September 30,
1998. The Order sets forth the Government's policy against the use, acquisition, reproduction,
distribution, and transmission of computer software that violates applicable copyright laws. To
implement this policy, the Order directs each executive agency to:

              #       Adopt procedures to ensure that the agency does not acquire, reproduce,
                      distribute, or transmit computer software in violation of applicable
                      copyright laws;



                                               14
                                                                                           Appendix C
                                                  Review of NRC’s Accountability and Control of Software


              #      Establish procedures to ensure that the agency has present on its
                     computers and uses only computer software not in violation of applicable
                     copyright laws. These procedures may include:
                     #        preparing agency inventories of the software present on its
                              computers;
                     #        determining what computer software the agency has authorization
                              to use; and
                     #        developing and maintaining adequate record keeping systems.
              #      Take appropriate measures, including for example the use of
                     certifications or written assurances, in the event the agency becomes
                     aware that contractors or recipients of Federal financial assistance are
                     using Federal funds to acquire, operate, or maintain computer software in
                     violation of copyright laws and determines that such actions may affect
                     the integrity of the agency's contracting and Federal financial assistance
                     processes;
              #      Cooperate fully in implementing the Order and share information that may
                     be useful in combating the use of computer software in violation of
                     applicable copyright laws;
              #      Educate appropriate agency personnel regarding software copyrights and
                     the policies and procedures adopted by the agency to honor them; and
              #      Ensure that the policies, procedures, and practices of the agency related
                     to copyrights protecting computer software are adequate and fully
                     implement the policies set forth in the Order.

                     The Executive Order also directs the Office of Management and Budget
                     to use its oversight mechanisms to foster compliance with the Order.

II     RECOMMENDED SOFTWARE MANAGEMENT PRACTICES
       Each Federal agency should consider these or similar steps to ensure agency
       compliance with the Order:

A. Assign Responsibilities
      Assign to the Chief Information Officer (CIO) overall responsibility for developing and
      implementing a plan to ensure agency compliance with the Order utilizing resources
      from throughout the organization. The CIO should look to these Guidelines as a
      resource in developing such a plan. Other partner organizations within the agency may
      be needed to properly implement this Executive Order. For example, the CIO may wish
      to partner with the agency's Inspector General to conduct the initial assessment
      described below in paragraph B; the Procurement Executive to develop and implement
      the software management policies referenced in paragraph C; and Human Resources to
      develop and implement the training program referenced in paragraph D. The CIO may
      delegate specific tasks to appropriate personnel within the agency, provided that he or
      she exercises sufficient supervision to ensure that such tasks are completed in a
      satisfactory manner.


                                             15
                                                                                              Appendix C
                                                     Review of NRC’s Accountability and Control of Software


3.     Direct your CIO to develop performance measures to assess the agency's compliance
       with the Order.

B. Initial Assessment. The CIO should coordinate through qualified personnel or an outside
contractor an initial assessment of the agency's existing policies and practices with respect to
the use and management of computer software. The purpose of the assessment is to help the
agency evaluate its current state of compliance with the Order and to identify any additional
measures needed to achieve compliance. The assessment may vary from agency to agency.
However, each agency should, at a minimum, review whether existing policies and procedures
promote legal software use and proper software management (as described below in paragraph
1). In addition, each agency should, to the extent feasible, establish the initial software baseline
described in paragraph 2, particularly if agency policies and procedures with respect to software
use and management are found to be deficient in any respect:

1.     Review and identify deficiencies in existing policies and procedures, including
       procedures for acquiring and installing software, storage and disposition of software and
       licenses, and software training.

2.     Establish an initial baseline of the agency's software (including copies installed on
       individual computers and accessed through agency networks) to assess whether the
       agency's software usage complies with applicable software licenses. The agency may
       use a sampling approach to assess its existing software management policies and
       practices. Upon completion of the initial baseline, any unauthorized copies of software
       should be (i) properly licensed or (ii) destroyed and replaced with licensed copies.

C. Software Management Policy. Develop a software management policy on the acquisition
and use of software by the agency and its employees.

1.     Adopt a policy prohibiting the use or installation of software by agency employees for
       which the agency lacks appropriate licenses (unless such software is properly licensed
       to the employee and used in accordance with agency policy).

2.     Adopt a software acquisition policy to guard against the acquisition of counterfeit
       software or software that violates licensing restrictions. The software acquisition policy
       should, among other things, require the following procedures:
       a.     Educate employees authorized to acquire software on the Agency's acquisition
              procedures.
       b.     To the extent feasible and consistent with agency acquisition procedures,
              standardize the agency's policy of acquisition of software.
       c.     Obtain from software resellers (i) proper licenses for any software supplied to the
              agency, or (ii) other information from which the agency can determine that its
              use of such software is validly licensed by the copyright holder.
       d.     Purchase software from reputable resellers.




                                                16
                                                                                             Appendix C
                                                    Review of NRC’s Accountability and Control of Software


3.     To the extent feasible and consistent with agency acquisition procedures, adopt
       software installation and distribution procedures to ensure that software: (i) originates
       from the office(s) designated by the agency to acquire new software; (ii) is approved by
       those office(s); or (iii) meets Agency IT architecture and standards requirements.

4.     Establish and maintain a record keeping system for documentation and materials
       evidencing legal use of the agency's software, including, for example, original software
       licenses, certificates of authenticity, purchase invoices, and copy of completed
       registration card. Consider the use of software management computer programs to
       automate such record keeping. If feasible, store such records, as well as any original
       software media (e.g., CD-ROMs or diskettes), in secure, designated location(s) within
       the agency.

5.     Include in the agency's software management policy provisions concerning the
       downloading of software from the Internet by agency employees, the use of user-owned
       software on agency computers, the use of agency-owned software from home or remote
       computers, and the decommissioning of agency computers. Ensure that such uses of
       software comply with applicable licenses and agency policy.

6.     Include in the agency's software management policy information concerning the
       authorities to whom employees can direct questions about the policy and report possible
       violations of the policy.

7.     Develop and adopt procedures for monitoring compliance with the software
       management policy, addressing reports and incidents of alleged violations of the policy,
       and disciplining employees who knowingly violate the policy or Federal copyright laws.

D. Training. Develop a training program for existing and new employees.
              1.    Existing Employees
                    a.       Amend employee handbook to include the agency's software
                             management policy, and distribute the updated handbook to all
                             employees.
                    b.       Provide training on the agency's software management policy for
                             existing employees to inform them of the types of software piracy,
                             how to detect and prevent piracy, how to implement the software
                             use policy, and consequences of violating the policy. Such training
                             may be conducted as a separate seminar or as a part of existing
                             training programs.
                    c.       Circulate reminders of the agency's software management policy
                             on a regular basis (at least annually) or remind employees of the
                             policy in other ways (at least annually), for example, through
                             notices in agency newsletters.
                    d.       Inform employees where they can get additional information on
                             the agency's software management policy and software piracy
                             prevention.

                                               17
                                                                                             Appendix C
                                                    Review of NRC’s Accountability and Control of Software


               2.     New Employees
                      a.   Provide each new employee an employee handbook that includes
                           the agency's software management policy.
                      b.   Train new employees during their initial agency orientation on how
                           to comply with the agency's software management policy.

E. Periodic Inspections and Assessments. Develop a system (possibly in conjunction with
the IG or other agency assessment tool) for periodic and random inspections and assessments
to evaluate the effectiveness of the software management policy. (A tool kit of helpful practices
is to be published separately to assist agencies with implementation).

III OTHER REQUIREMENTS
Software Use by Government Contractors and Recipients of Federal Funds. The
Executive Order requires government contractors and recipients of Federal grants and loans to
have "appropriate systems and controls in place to ensure that Federal funds are not used to
acquire, operate, or maintain computer software in violation of applicable copyright laws." If an
agency becomes aware that contractors or recipients are using Federal funds to acquire,
operate, or maintain unlicensed software and determine that such actions may affect the
integrity of the agency's contracting and financial assistance processes, the agency is required
to "take such measures, including the use of certifications or written assurances, as the agency
head deems appropriate and consistent with the requirements of law."
NOTE: Guidance will be issued separately with respect to these requirements of the
Executive Order.




                                               18
                                                                                             Appendix D
                                                    Review of NRC’s Accountability and Control of Software



MEMORANDUM TO NRC’S CHIEF INFORMATION OFFICER



                             August 31, 2001



MEMORANDUM TO:               Stuart E. Reiter
                             Chief Information Officer


FROM:                        Stephen D. Dingbaum/RA/
                             Assistant Inspector General for Audits


SUBJECT:                     INFORMATION TECHNOLOGY SEAT MANAGEMENT
                             CONTRACT

On August 23, 2001, OIG met with Office of the Chief Information Officer (OCIO) staff (Messrs.
Schaeffer, Shields and Kee) to discuss issues related to our ongoing audit of NRC’s software
and licensing agreements. The purpose of this memorandum is advise you of an issue that
needs immediate attention.

During the August 23rd meeting, we discussed the forthcoming seat management contract and
how it addresses the requirements contained in Executive Order (EO) 13103, Computer
Software Piracy. OCIO staff stated that the agency plans to award this contract in early
September. OIG advised the OCIO staff that the Statement of Work for the proposed contract
does not clearly describe a contractor’s responsibility for meeting the EO’s requirements.

The OCIO staff advised that meeting these requirements will be a shared responsibility of OCIO
and the selected contractor. Because neither this division of responsibility or need to meet the
EO’s requirements are clear, OIG recommends that the seat management contract be specific
about the duties assigned to the successful vendor. This action is needed to comply with the
provisions of the EO and to protect the NRC, its employees, and the vendor from the potential
consequences related to using software that is not properly licensed.

If you have any questions, please contact Tony Lipuma at 415-5910 or me at 415-5915.

Attachments: As stated

cc:     William D. Travers, EDO




                                               19
                   Review of NRC’s Accountability and Control of Software




[Page intentionally left blank.]




              20
                                                                                              Appendix E
                                                     Review of NRC’s Accountability and Control of Software


MEMORANDUM FROM NRC’S CHIEF INFORMATION OFFICER



                              October 16, 2001


MEMORANDUM TO:                Stephen Dingbaum
                              Assistant Inspector General for Audits
                              Office of the Inspector General


FROM:                         Stuart Reiter/RA/
                              Chief Information Officer


SUBJECT:                      INFORMATION TECHNOLOGY SEAT MANAGEMENT
                              CONTRACT

This is in response to your memorandum dated August 31, 2001, subject as above. As
discussed in the August 23, 2001 meeting with Tony Lipuma, we will work with the Office of the
Inspector General (OIG) to address the requirements contained in Executive Order (EO) 13103,
Computer Software Piracy. The Office of the Chief Information Officer has policies and
procedures in place to address some of the requirements of the EO, and will work with the
agency to modify and enhance them as necessary. We would appreciate any
recommendations the OIG can provide on implementing the requirements of the EO.

The Statement of Work for the NRC Infrastructure Services and Support Contract was awarded
on September 28, 2001 under the GSA Seat Management Contract. It requires the contractor
to track the installation, location, related license, warranty, maintenance and service records for
all hardware and software provided under the order and hardware connected to it, including
NRC-owned and personally-owned hardware and software. However, the major requirements
in this area are for the vendor to provide an inventory of software installed on agency hardware
and maintain licenses for software they manage, acquire, and/or install under the Statement of
Work.

The next step will be for the contractor to develop a detailed Concept of Operations for NRC
approval that will specify how they will meet agency inventory, license management, and other
operational requirements. Please contact James B. Schaeffer (415-8720, JBS) if you have any
questions or to arrange any assistance you may be able to provide.

cc: W. Travers, EDO




                                                21
